                                                                 E-IN-NPS-0101-2002-A


             United States Department of the Interior
                            Office of Inspector General
                                  Washington, D.C. 20240

                                                                           March 5, 2003

Memorandum

To:        Chief Financial Officer, National Park Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the National Park Service’s
           Fiscal Year 2002 Financial Statements (No. 2003-I-0027)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the National Park Service’s (NPS) financial statements as of September 30, 2002
and for the year then ended. In conjunction with its audit, KPMG noted certain matters
involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on NPS’s financial statements (Report
No. 2003-I-0021) and do not constitute reportable conditions as defined by the American
Institute of Certified Public Accountants.

        The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachment

cc:     Director, Office of Financial Management
        Director, Accounting Operations Center, National Park Service
        Audit Liaison Officer, Fish and Wildlife and Parks
        Audit Liaison Officer, National Park Service
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
                                                                                 ATTACHMENT



                 2001 M Street, NW
                 Washington, DC 20036




                                                        MANAGEMENT LETTER



December 12, 2002




Chief Financial Officer, National Park Service and
Inspector General, U.S. Department of the Interior:



Ladies and Gentlemen:

We have audited the consolidated financial statements of the National Park Service (NPS) as of and for the
years ended September 30, 2002 and 2001, and have issued our report thereon dated December 12, 2002.
In planning and performing our audit of the consolidated financial statements, we considered NPS’s
internal control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. An audit does not include examining the effectiveness
of internal control and does not provide assurance on internal control. We have not considered internal
control since the date of our report.

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies and are summarized as follows:

1. Reservation Fee Processed by Third Party Service Provider

    Comments

    NPS has outsourced the facilities reservation system to Spherix. Once every two weeks, NPS
    downloads a report from Spherix that shows the total reservation fees collected for each park and
    records the reservation fees into FFS. NPS provides the reservation fee collection reports to the parks,
    however, the parks do not consistently review the reservation fee collection reports. In addition, NPS
    does not obtain annual assurance from Spherix related to the internal controls over the reservation fee
    collection process.

    Recommendations

    We recommend that the parks regularly review the reservation fee collection reports to ensure the
    amounts collected are reasonable in relation to their expectations and past experience. We also


                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                a member of KPMG International, a Swiss association.
   recommend that NPS annually obtain assurance similar to a SAS 70 type II report that adequate
   controls are in place over the Spherix reservation fee collection process.

2. Invoice Processing

   Comment



   Certain parks manually prepare invoices and track the status of these invoices in systems that do not
   interface with NPS’s accounting system, Federal Financing System (FFS). The parks records the
   revenue related to these invoices in FFS when they are collected or at the end of the fiscal year.

   Recommendation

   We recommend that NPS record revenue in FFS at the time the transaction occurs. NPS should
   consider requiring the parks to use FFS for recording and monitoring receivables or consider
   developing an interface to the systems used by the parks to track and monitor receivables. This will
   help eliminate duplicate transaction entry and minimize the potential for errors.

3. Prompt Pay Interest Rate

   Comment


   NPS did not update the prompt pay interest rate in the accounting system, FFS, on a timely basis.
   Specifically, NPS did not decrease the prompt pay interest rate from 5.875% to 5.50% when the
   interest rate changed on January 1, 2002. As a result, for fourteen days since the beginning of the year,
   NPS paid excess prompt pay interest on certain fiscal year 2002 payments that began accruing interest
   after January 1, 2002.

   Recommendation

   We recommend that NPS establish procedures and controls to ensure that the prompt pay interest rate
   is updated on a timely basis.

4. Accrual Reversals and De-Obligations

   Comment


   NPS needs to improve controls over reversing accruals and de-obligating funds. Specifically, NPS
   incorrectly reversed an accrual using a negative DD transaction code, however, the accounting system
   had already automatically reversed this accrual. In addition, NPS did not de-obligate $20,000 even
   though NPS made related payments of $17,386 using third-party drafts.



   Recommendation

   We recommend that NPS establish controls to avoid reversing accruals that are reversed by the
   accounting system and to de-obligated amounts for third-party draft payments.
Our audit procedures were designed primarily to enable us to form an opinion on NPS’s financial
statements, and therefore, may not bring to light all weaknesses in policies or procedures that exist.
However, we also take this opportunity to share our knowledge of NPS, gained during our work, to make
comments and suggestions that we hope can be useful to you. We would be pleased to discuss these
comments and recommendations with you at any time.

This report is intended solely for the information and use of the U.S. Department of the Interior’s
management and the U.S. Department of the Interior Office of Inspector General.

Very truly yours,
